                    U.S. Department of Agriculture

                       Office of Inspector General
                                 Southeast Region




          Audit Report

WIC Administrative Costs in Georgia




                            Report No. 27002-2-At
                                      March 2006
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Southeast Region - Audit
                                  401 West Peachtree Street, Suite 2328
                                         Atlanta, Georgia 30308
                                 TEL: 404-730-3210 FAX: 404-730-3221




March 31, 2006


REPLY TO
ATTN OF: 27002-2-At

TO:           Donald E. Arnette
              Regional Administrator
              Food and Nutrition Service – Southeast Region

FROM:         John W. Pepper /S/
              Acting Regional Inspector General

SUBJECT:      WIC Administrative Costs in Georgia


This report presents the results of our audit of WIC administrative costs incurred by the Georgia
Department of Human Resources (GDHR). The FNS response to the report, dated March 29,
2006, is included as exhibit D, with excerpts and the Office of Inspector General’s position
incorporated into the relevant Findings and Recommendations sections of the report.

Based on the responses, we were unable to reach management decision on any of the report’s
recommendations. Management decisions can be reached once you have provided us with the
additional information outlined in the report sections OIG Position
following each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of the
recommendations. Please note that the regulation requires that management decision be reached
on all recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.
Executive Summary
WIC Administrative Costs in Georgia (Audit Report No. 27002-2-At)

Results in Brief                      The Food and Nutrition Service (FNS) administers the Special Supplemental
                                      Food Program for Women, Infants, and Children (WIC), which provides low-
                                      income women and children with nutritious foods, counseling, and referrals
                                      to healthcare and other social services. In Georgia, the FNS Southeast
                                      Regional Office (FNSRO) oversees the Georgia Department of Human
                                      Resources’ (GDHR) administration of the program. In fiscal years (FY) 2003
                                      and 2004, grants for Georgia WIC nutrition service and administrative costs
                                      totaled about $38.6 million and $40.8 million, respectively. The Office of
                                      Inspector General (OIG) initiated this audit to determine if GDHR’s controls
                                      over WIC administrative costs were adequate to ensure that costs claimed
                                      were accurate and allowable.

                                      Based upon our review of 2 of 19 Georgia district health offices 1 and
                                      8 clinics, we concluded that GDHR needs to improve its controls over how it
                                      allocates WIC administrative costs to FNS.

                                      GDHR Needs to Improve its Sampling Methodology for Determining
                                      Georgia WIC’s Administrative Costs

                                      GDHR did not have adequate controls in place over the sampling
                                      methodology used to determine what percentage of its administrative costs it
                                      may allocate to WIC. Rather than trying to account for every minute spent by
                                      each employee on each different task, GDHR uses a random moment sample
                                      study (RMSS) to determine, through statistically sound methods, how much
                                      time its employees devote to WIC-related tasks. Although this method
                                      requires that employees whose salaries are fully paid by WIC be separated
                                      from other employees, we found that these groups were, due to a lack of
                                      adequate procedures, combined in the Savannah District Office. As a result,
                                      inaccurate sampling would inflate WIC administrative costs charged to the
                                      WIC Program.

                                      In addition, we found that GDHR had no controls in place to verify the
                                      accuracy of its sampling methodology. RMSS involves selecting several
                                      moments during the workday and asking randomly selected employees what
                                      task they are engaged in at that moment. Since employees are sampled by
                                      telephone, verification procedures are necessary to attest (usually in writing)
                                      to the accuracy of the sample. Verifying the accuracy of these samples is
                                      especially important since relatively large sums are allocated based on each
                                      “strike” (i.e., each time employees state that they are working on a WIC-

1
  These two district offices had combined administrative costs totaling $5.2 million in FYs 2003 and 2004. For a fuller discussion of how we selected these
offices, see Scope and Methodology.

USDA/OIG-A/27002-2-At                                                                                                                            Page i
                   related task). In FY 2004, for example, each time RMSS recorded a WIC-
                   related “strike,” GDHR charged $45,002 to WIC. Overall, in FY 2004,
                   GDHR charged $40.8 million in administrative costs to WIC without any
                   procedures to verify the results of its sampling methodology.

                   GDHR Needs Controls to Ensure that Independent Audit Findings Are
                   Resolved

                   GDHR did not have adequate management controls to ensure that corrective
                   action was taken in response to independent audits. Between May and
                   December 2004, independent auditors provided GDHR 15 audit reports
                   including numerous findings relating to WIC administrative costs.
                   Altogether, these 15 reports recommended that GDHR recover about
                   $5.7 million from its district offices. However, GDHR had taken no action to
                   recover these funds nor has it corrected the deficiencies identified. Without
                   adequate management controls to ensure that problems identified during
                   independent audits are resolved in a timely manner, deficiencies that may be
                   detrimental to program integrity will likely continue.

                   District Office Claimed Undocumented WIC Administrative Costs

                   Although district offices are required to document expenses passed on to the
                   Federal Government, we found that the Savannah District Office charged the
                   WIC program for salary costs that it did not document and may not have
                   incurred. This occurred because a district official applied unspent year-end
                   WIC funds to help pay salary costs of non-WIC employees whose time was
                   already accounted for under RMSS. As a result, the WIC program was
                   charged $111,303 in costs that could not be supported.

                   We concluded that GDHR could strengthen its controls over how it claims
                   WIC-related reimbursement by (1) improving how it conducts random
                   moment sampling; (2) developing and implement procedures for verifying
                   the results of its random samples; (3) developing and implementing controls
                   to resolve independent audit findings; and (4) recovering any undocumented
                   WIC administrative costs that district offices may have charged.


Recommendations
in Brief           FNS should instruct GDHR to improve its procedures for random moment
                   sampling, including developing and implementing RMSS verification
                   procedures, and require GDHR to assess the monetary impact of improperly
                   classified employees at its districts and nonprofit organizations.

                   FNS should instruct GDHR to develop and implement procedures for
                   resolving independent auditors’ findings, including the $5.7 million in
                   questioned costs identified between May and December 2004.
USDA/OIG-A/27002-2-At                                                                    Page ii
                   Finally, FNS should instruct GDHR to recover $111,303 in undocumented
                   WIC expenses from the Savannah District Office, and determine if recoveries
                   need to be made at the other districts and nonprofit organizations.

Agency Response    In their response dated March 29, 2006, FNS officials expressed general
                   agreement with the findings and recommendations as presented. For one
                   recommendation, No. 4, FNS officials stated that they could not require
                   GDHR to amend an approved cost-allocation plan for which FNS was not the
                   cognizant agency.

OIG Position       We generally concurred with the corrective actions proposed by the agency,
                   although additional information as outlined in the report sections OIG
                   Position will be needed to reach management decisions. For
                   Recommendation No. 4, while we agree that FNS cannot override
                   determinations made by the cognizant agency, HHS, a representative of that
                   agency expressed agreement with OIG’s position. Therefore, we believe that
                   FNS officials need to consult with HHS and take action as appropriate.




USDA/OIG-A/27002-2-At                                                                 Page iii
Abbreviations Used in This Report

AGP            Administration Grant Per Participant
APD            Advanced Planning Document
CFR            Code of Federal Regulations
DCA            Division of Cost Allocation
HHS            Department of Health and Human Services
FY             Fiscal Year
FMR            Financial Management Review
FNS            Food and Nutrition Service
FNSRO          Food and Nutrition Service Regional Office
GDHR           Georgia Department of Human Resources
NSA            Nutrition Services and Administration
OMB            Office of Management and Budget
RMSS           Random Moment Sample Study
SA             State Agency
WIC            Special Supplemental Food Program for Women, Infants, and Children




USDA/OIG-A/27002-2-At                                                               Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. WIC Cost Allocation ....................................................................................................... 3

        Finding 1             GDHR Needs to Improve Its Sampling Methodology for Determining
                              Georgia WIC’s Administrative Costs ..................................................................... 3
                                 Recommendation 1 .......................................................................................... 5
                                 Recommendation 2 .......................................................................................... 5
                                 Recommendation 3 .......................................................................................... 5
        Finding 2             GDHR Needs Controls for Verifying the Accuracy of its Samples........................ 6
                                 Recommendation 4 .......................................................................................... 7

    Section 2. Resolution of Audit Findings .......................................................................................... 9

        Finding 3             GDHR Needs Controls to Ensure that Independent Audit Findings Are
                              Resolved .................................................................................................................. 9
                                  Recommendation 5 ........................................................................................ 10
                                  Recommendation 6 ........................................................................................ 10

    Section 3. Administrative Costs ..................................................................................................... 11

        Finding 4             District Office Claimed Questionable Administrative Costs ................................ 11
                                  Recommendation 7 ........................................................................................ 12
                                  Recommendation 8 ........................................................................................ 12

Scope and Methodology........................................................................................................................ 14

Exhibit A – Summary of Monetary Results ....................................................................................... 16
Exhibit B – Summary of Independent Financial Review Results..................................................... 17
Exhibit C – Sites Visited ....................................................................................................................... 18
Exhibit D – Agency Response .............................................................................................................. 19




USDA/OIG-A/27002-2-At                                                                                                                           Page v
Background and Objectives
Background                            In 1972, the Food and Nutrition Service’s (FNS) Special Supplemental Food
                                      Program for Women, Infants, and Children (WIC) was authorized by an
                                      amendment to the Child Nutrition Act of 1966. 2 WIC provides pregnant,
                                      postpartum and breastfeeding women, infants, and children with nutritious
                                      foods, nutrition counseling, and referrals to health and other social services
                                      for participants.

                                      WIC is not an entitlement program: i.e., Congress does not set aside funds to
                                      allow every eligible individual to participate in the program. Instead, WIC is
                                      a Federal grant program for which Congress authorizes a specific amount of
                                      funding each year for program operations. FNS, which administers the
                                      program at the Federal level, provides these funds to WIC State agencies to
                                      pay for WIC foods, nutrition counseling and education, and administrative
                                      costs.

                                      The program is available in all 50 States, 33 Indian Tribal Organizations,
                                      American Samoa, the District of Columbia, Guam, Puerto Rico, and the
                                      Virgin Islands. These 88 WIC State agencies administer the program through
                                      2,200 local agencies and 9,000 clinic sites. The average monthly participation
                                      for FY 2003 was approximately 7.63 million.

                                      Annually, Federal funds are appropriated and allocated to support WIC
                                      program delivery. Under the Federal funding formula, each State agency’s
                                      current year food grant is divided by its average per person food cost for the
                                      prior April through March time period and adjusted for inflation to project
                                      the number of participants it can serve in the upcoming year. Once the
                                      number of projected participants is determined, nutrition service and
                                      administration (NSA) grants are calculated on a per participant grant basis.
                                      NSA grants are funds provided to the States to cover administrative costs
                                      associated with the WIC program.

                                      Congress appropriated $5.24 billion for WIC in FY 2005. By comparison, the
                                      WIC program appropriation was $20.6 million in 1974, $750 million in 1980,
                                      $1.5 billion in 1985, and $2.1 billion in 1990.

                                      The FNS National Office, along with seven FNS Regional Offices (FNSRO),
                                      is responsible for overall WIC program policies and procedures. The
                                      Southeast FNSRO, located in Atlanta, Georgia, provides oversight of WIC
                                      program administration for Alabama, Florida, Georgia, Kentucky,
                                      Mississippi, North Carolina, South Carolina, and Tennessee. In FY 2004 the


2
    Public Law 92-433, September 26, 1972.

USDA/OIG-A/27002-2-At                                                                                        Page 1
                   combined NSA costs for these eight States were $228.4 million, representing
                   17 percent of the national total.

                   FNSRO administers the Georgia WIC program through an agreement with
                   the Georgia Department of Human Resources (GDHR). GDHR administers
                   the program through agreements with 21 local agencies (19 district health
                   offices and 2 nonprofit organizations).

                   The 19 district health offices maintain their own separate accounting and
                   payroll systems and submit monthly claims to GDHR for reimbursement of
                   administrative costs. Services are provided to eligible participants in these
                   health districts through county health departments and clinics located in the
                   State’s 159 counties. The district health offices either pay for administrative
                   services directly or pay the county health departments for services.

                   In FYs 2003 and 2004, GDHR incurred total WIC costs of about $292.6
                   million to provide services to an average of 253,144 participants each month.
                   Of this amount, food costs were about $213.3 million and administrative
                   costs were about $79.3 million.

Objectives         The objectives of this audit were to evaluate the adequacy of FNSRO’s and
                   GDHR’s management and accounting controls over WIC administrative
                   expenditures, including costs incurred by the State and local agencies, and
                   determine if WIC administrative costs claimed were accurate and allowable.

                   At the Southeast FNSRO, we reviewed FNS’ controls over GDHR’s WIC
                   administrative costs. The controls consisted primarily of financial
                   management reviews performed at the State and district offices. We found
                   that FNS has completed these reviews as required and determined that these
                   reviews were adequate to identify any major weaknesses with GDHR’s WIC-
                   related financial operations.




USDA/OIG-A/27002-2-At                                                                      Page 2
Findings and Recommendations
Section 1. WIC Cost Allocation

                    We found that GDHR’s procedures for determining what portion of its
                    administrative costs can be passed on to WIC need improvement. In
                    particular, we found two problems with the random moment sampling
                    methodology GDHR uses to determine FNS’ share of these costs:

                     •   GDHR lacks procedures to separate different categories of employees
                         when conducting its random samples. Without such procedures, the
                         results of its random samples are not statistically valid and cannot be said
                         to accurately represent the work being performed by different categories
                         of employees. In one instance, we found that a district office had allowed
                         six full-time WIC-only employees to be sampled alongside other
                         employees who spend only a portion of their time on WIC. Since
                         salaries for WIC-only employees are already charged fully against the
                         program, this error would effectively inflate the reported percentage of
                         WIC-related work reported for the district’s employees as a group and
                         consequently inflate salary costs charged to the WIC program.
                     •   GDHR also lacks procedures to verify the results of its random samples.
                         As a result, it was allocating $89.8 million annually without taking
                         reasonable steps to verify that its random samples are correct.

                    Until these problems are resolved, GDHR’s random sampling methodology
                    cannot be said to accurately and reliably allocate costs to the WIC program.


Finding 1           GDHR Needs to Improve Its Sampling Methodology                               for
                    Determining Georgia WIC’s Administrative Costs

                    We found that the Savannah District office, of the two we visited, included
                    six of its nine full-time WIC employees in the sample of employees who
                    work only part-time for WIC. This occurred because GDHR did not have
                    procedures in place to separate different categories of employees. As a
                    result, inaccurate sampling would inflate WIC administrative costs charged to
                    the WIC program.

                    As part of allocating WIC-related administrative costs to FNS, GDHR must
                    determine what percentage of its employees’ work has actually been devoted
                    to WIC-related tasks. Rather than accounting for each minute spent by each
                    employee, GDHR uses a random moment sample study (RMSS)—a method
                    of randomly determining the activities of a group of employees and the


USDA/OIG-A/27002-2-At                                                                         Page 3
                                      percentage of time those employees spend on various activities. 3 After
                                      selecting several moments during the workday and asking randomly-selected
                                      employees what activity they are engaged in at that moment, RMSS results
                                      are used to determine how employees spend their time. On the basis of such
                                      a sample, GDHR may then allocate administrative costs to the various
                                      programs they operate.

                                      For these projections to be statistically valid, the sampled personnel must be
                                      classified correctly. 4 GDHR collects two sets of samples to determine total
                                      WIC administrative costs at the county departments. The first set of samples
                                      consists of employees whose salaries are paid wholly from WIC funds and
                                      who work exclusively for the WIC program (“WIC sample”). The second set
                                      of samples consists of employees whose salaries are not paid directly by
                                      WIC, but work in an integrated environment in which they could perform
                                      WIC duties (“county public health sample”). If these sample sets are not kept
                                      separate, the sample results cannot be considered statistically reliable and
                                      accurate.

                                      We found, however, that the Savannah District Office included in the “county
                                      public health sample” six of nine county public health employees 5 whose
                                      salaries were paid 100 percent by WIC. Since these employees’ salaries were
                                      entirely WIC-funded, they should have been removed from the “county
                                      public health sample” and placed in the “WIC sample.” The inclusion of full-
                                      time WIC employees in the “county public health sample” increased the
                                      number of “strikes” (i.e., the number of times that employees stated that they
                                      were performing WIC-related tasks) for this sample and, in turn, increased
                                      the percentage of WIC administrative costs allocated to county public health
                                      departments.

                                      We found that GDHR did not have any policies or procedures in place to
                                      ensure that county public health employees whose salaries were paid
                                      100 percent by WIC funds were excluded from the “county public health
                                      random sample.” Without such procedures in place, errors like the one we
                                      identified in the Savannah District office could compromise the random
                                      moment sampling methodology and cause inaccurate costs to be allocated to
                                      the WIC program.

                                      So long as a random moment sampling study continues to be used to
                                      determine the costs that may be passed on to WIC, GDHR must develop and
                                      implement policies to ensure that those samples are statistically valid.

3
  GDHR Cost Allocation Plan, Appendix B, Revision No. 00-7, Section I, “RMSS Policy and Procedures,” effective July 1, 2002.
4
  RMSS is based on the sampling theory that a relatively small number of chance observations, taken at random, exhibit the same distribution of
characteristics that exists in the entire population or universe. Sampling theory is a mathematical concept with rigid and controlling precepts that determine
the procedures that must be implemented in order to produce statistically valid results.
5
  The Chatham County Board of Health agreed to pay 100 percent of the salaries for nine full-time county public health employees at the Savannah
District office to provide WIC services at the Midtown Health Center and Eisenhower Drive Clinic. Initially these employees’ salaries were paid with
county public health funds, but later the district reimbursed the county with WIC program funds.

USDA/OIG-A/27002-2-At                                                                                                                              Page 4
Recommendation 1

                   Instruct GDHR to obtain a listing of Savannah District county public health
                   employees whose salaries are paid wholly from WIC funds and ensure that
                   those employees are removed from the county public health sample and
                   placed in the WIC-only sample.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        We will require that the State agency provide adequate
                        documentation supporting that all full-time WIC employees were
                        removed from this district’s county public health sample and
                        placed in the WIC-only sample. They will be required to make
                        these adjustments for * * * [FY] 2003 and 2004.

                   OIG Position. We agree with FNS’ proposed corrective action for this
                   recommendation. To achieve management decision, FNS needs to provide us
                   with the timeframes for implementing the corrective action.

Recommendation 2

                   Instruct GDHR to determine the impact of the improper classification of
                   employees on WIC administrative costs for all districts and non-profits in
                   FY 2004 and recover any overcharges identified.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        The State agency will be required to review all districts and non-
                        profits and determine if, during FY 2004, there were full-time
                        WIC employees that should not have been in the county public
                        health samples. If there are instances where full-time WIC
                        employees were in the county public health samples, we will
                        request documentation to support adjustments of any overcharges
                        to WIC.

                   OIG Position. We agree with FNS’ proposed corrective action for this
                   recommendation. To achieve management decision, FNS needs to provide us
                   with a time-phased plan for implementing the corrective action.

Recommendation 3

                   Instruct GDHR to develop and implement statewide procedures to ensure that
                   all county public health employees whose salaries are paid wholly from WIC
                   funds are removed from the county public health random sample universe
                   and placed in the WIC-only sample universe.
USDA/OIG-A/27002-2-At                                                                        Page 5
                                   Agency Response. In its March 29, 2006, response, FNS stated,

                                         These procedures will be required and they should include
                                         assurance that the State agency, during their fiscal reviews, will
                                         verify that WIC employees are in the correct sample.

                                   OIG Position. We agree with FNS’ proposed corrective action for this
                                   recommendation. However to achieve management decision, FNS needs to
                                   provide us with the timeframes within which GDHR will be required to
                                   implement the corrective action.


Finding 2                          GDHR Needs Controls for Verifying the Accuracy of its Samples

                                   GDHR had no verification procedures in place to attest to the accuracy of
                                   RMSS observations. This occurred because GDHR officials do not believe
                                   they are required to implement a verification procedure for this sampling
                                   methodology. As a result, during FY 2004, about $89.8 million of
                                   administrative costs was allocated based on the results of RMSS, without any
                                   procedures for verifying that those results accurately represented how
                                   employees allotted their time.

                                   Although a State or local agency may use a system such as RMSS to
                                   determine the time employees spend on various programs and other cost
                                   objectives, the agency must also, according to FNS’ WIC Cost Allocation
                                   Guide, include a statement, to be signed by both the interviewer and the
                                   employee, attesting to the accuracy of each RMSS observation. 6

                                   Currently, GDHR conducts sample observations by means of a telephone
                                   exchange between the interviewer and the employee being sampled. The
                                   interviewer’s computer screen displays the randomly selected employee’s
                                   name, the employee’s telephone number, and the date and time the
                                   observation is to be made. The interviewer calls the employee at the
                                   predetermined time and asks the employee what task is being performed at
                                   that moment. The interviewer then records the observation to an activity code
                                   based upon the employee’s response.

                                   We found, however, that the interviewer and the employee do not attest in
                                   writing to the response. GDHR officials explained that they were not required
                                   to follow this requirement for verifying data because their approved Public
                                   Assistance Allocation Plan relieves them of this responsibility. 7 Although it
                                   is true that the WIC Cost Allocation Guide states that the “instructions given

6
 FNS’ WIC Cost Allocation Guide, dated September 1999.
7
 GDHR’s cost allocation plan, which includes the use of RMSS, was reviewed and approved in 1998 by HHS-DCA as the cognizant agency for the
State’s cost allocation procedures.

USDA/OIG-A/27002-2-At                                                                                                                  Page 6
                      in this guide apply to WIC direct costs, and to shared costs assigned to WIC
                      in situations not covered by an APD (Advanced Planning Document),” 8 we
                      do not believe that this provision relieves GDHR of its responsibility to
                      maintain effective internal controls over its cost allocation plan.

                      When we discussed this problem with officials at the Southeast FNSRO, they
                      agreed that GDHR should implement a procedure for verifying the results of
                      its random samples. In January 2002, FNSRO completed a Financial
                      Management Review of the WIC program in Georgia. In its report, FNSRO
                      stated that random moment sampling methodology should include statements
                      signed by the interviewer and the employee and recommended that the State
                      “provide written assurance/procedures that employees in all district and
                      county offices, as well as the State office employees, will verify the validity
                      of RMSS strikes charged to them.” GDHR disagreed with FNS’
                      recommendation and stated that it would be impractical to have each
                      employee sign a form attesting to the accuracy of the observations. At the
                      time of our review this issue had not been satisfactorily resolved.

                      Because GDHR’s cost allocation plan was approved by the Department of
                      Health and Human Services – Division of Cost Allocation (HHS-DCA), we
                      contacted a HHS-DCA representative for State and local governments. The
                      representative stated that a telephone call without any form of verification or
                      validation is not adequate. He informed us that the State should have a
                      method by which it verifies the activities of the sampled employees.

                      We determined that during FY 2004, GDHR allocated about $89.8 million of
                      administrative costs to various programs based on the results of the county
                      public health and WIC RMSS studies. Each time the RMSS interviewer
                      contacted an employee and recorded a “strike” in the county public health
                      sample, GDHR allocated $45,002 of administrative costs to the
                      corresponding program as recorded at the time of the sample. It did so
                      without any procedures to attest to the validity of these strikes.

                      Given the significant financial ramifications of each “strike”, we concluded
                      that GDHR should implement a verification process requiring a statement to
                      be signed by the interviewer and the employee at the time a sample is taken
                      and a strike recorded.

Recommendation 4

                      Instruct GDHR to develop and implement a verification procedure for RMSS
                      sample results. This procedure should include a method by which
                      interviewers and employees, at the time of the observation, sign a statement
                      attesting to the accuracy of the observation.

8
    Emphasis added.

USDA/OIG-A/27002-2-At                                                                         Page 7
                   Agency Response. In its March 29, 2006, response, FNS stated,

                        Although this was a finding in our * * * FY 2002 financial
                        management review of the Georgia WIC Program, the current
                        FNS position does not support this audit recommendation. First,
                        since our cognizant agency, Health and Human Services-Division
                        of Cost Allocation (HHS-DCA), approved this time study, FNS
                        cannot require the State to make changes to it. If we disagree
                        with the methodology, we need to contact HHS-DCA and raise
                        the objection. Second, FNS does not disagree with the current
                        methodology. One of the benefits of a RMSS is that it is simple
                        and easy to administer. Requiring workers and supervisors to
                        validate the strikes on the time study makes the methodology
                        more time intensive and complicated, therefore, defeating the
                        purpose of the RMSS.

                   OIG Position. We agree that FNS cannot unilaterally require GDHR to
                   amend a cost allocation plan that was approved by the cognizant agency,
                   HHS-DCA. However, as noted in the finding, a representative of that agency
                   agreed with our position that GDHR was not performing adequate
                   verification. To reach a management decision on this recommendation, FNS
                   officials needs to provide us with written documentation that they have
                   consulted with the HHS-DCA to determine whether GDHR should be
                   required to strengthen its verification procedures. If so, agency officials need
                   to provide us with a time-phased plan for corrective action.




USDA/OIG-A/27002-2-At                                                                       Page 8
Section 2. Resolution of Audit Findings



Finding 3                 GDHR Needs Controls to Ensure that Independent Audit Findings
                          Are Resolved

                          Although GDHR received 15 audit reports from independent auditors from
                          May to December 2004, it has yet to resolve any recommendations. This
                          occurred because GDHR does not have adequate management controls to
                          address concerns raised by external audits. Due to this control weakness,
                          corrective actions have not been taken to recover $5.7 million in questioned
                          WIC-related costs, and identified program weaknesses have not been
                          corrected.

                          Each State is required to arrange for independent reviews of its financial
                          operations, 9 including all activities conducted for the purpose of
                          administering WIC programs. Federal regulations also require State agencies
                          to implement procedures ensuring the timely and appropriate resolution of
                          claims and other matters resulting from audit finding and recommendations. 10

                          In FY 2002, FNS reviewed Georgia’s WIC operations and found that Georgia
                          was not conducting systematic financial management reviews of local and
                          contracted agencies. Accordingly, FNS recommended that GDHR develop a
                          comprehensive process for reviewing local and contracted agencies. This
                          review would include all direct, allocated and indirect costs charged to the
                          WIC Program. In response to this recommendation, GDHR began contracting
                          with independent certified public accounting firms to perform annual
                          financial reviews of its district offices and to present their findings to GDHR
                          for resolution.

                          We reviewed the last 15 audit reports, which were issued between May and
                          December 2004. These reports found numerous problems with how the
                          district offices charged WIC administrative costs, including:

                              •   $2.7 million in invalid interagency agreements;
                              •   $5,824 in prohibited travel reimbursement;
                              •   $22,490 in WIC funds used for non-WIC services; and
                              •   $53,906 in unallowable compensation for personnel services.

                          In sum, these 15 audit reports recommended the recovery of $5.7 million
                          from the district offices (see exhibit B).



9
    7 CFR 246.20(b)(1).
10
     7 CFR 246.13(f).

USDA/OIG-A/27002-2-At                                                                             Page 9
                   However, at the time of our review, GDHR had taken no action to recover
                   these funds, or to address the recommendations presented in these reports.
                   WIC administration officials stated that since the requirement to conduct
                   these audits is relatively new, they are still working to establish procedures
                   for resolving these recommendations.

                   Without adequate management controls to resolve the issues identified by
                   these reports, deficiencies detrimental to WIC program integrity will likely
                   continue. We concluded that GDHR must implement procedures to ensure
                   that the problems identified by these audit reports are resolved.

Recommendation 5

                   Instruct GDHR to develop and implement management controls that will
                   effectively ensure that recommendations resulting from independent CPA
                   financial reviews are resolved.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        We will request that the State agency provide written procedures
                        or policies explaining how they will address their outstanding
                        review issues.

                   OIG Position. We agree with FNS’ proposed corrective action for this
                   recommendation. However to achieve management decision, FNS needs to
                   provide us with the timeframes within which GDHR will be required to
                   implement the agreed-upon corrective action.

Recommendation 6

                   Instruct GDHR to establish a timeframe for resolving the 15 independent
                   audit reports and addressing $5.7 million in questioned costs.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        We will require the State agency to provide adequate support
                        regarding the resolution of the audit report issues and the
                        questioned costs.

                   OIG Position. Although we agree with the proposed actions, the response
                   does not address the recommendation in that it does not provide the requested
                   timeframes. To reach a management decision, FNS officials need to provide
                   these.




USDA/OIG-A/27002-2-At                                                                   Page 10
Section 3. Administrative Costs



Finding 4                           District Office Claimed Questionable Administrative Costs

                                    The Savannah District Office charged the WIC program for salary expenses
                                    that it did not document and may not have incurred. This occurred because a
                                    district official applied unspent year-end WIC funds to help pay salary costs
                                    of non-WIC employees whose time was already accounted for under RMSS.
                                    As a result, the WIC program incurred $111,303 in questionable costs.

                                    Federal regulations establish principles for determining allowable costs
                                    incurred by State Governments under grants, cost reimbursement contracts
                                    and other agreements with the Federal Government. These principles require
                                    that these costs be necessary, reasonable, and adequately documented. 11

                                    We found, however, that, during FYs 2004 and 2005, a district official made
                                    undocumented charges to Georgia’s WIC Program for “personnel costs”:

                                     •    In June 2004 (the end of the State’s fiscal year), the official charged the
                                          WIC program $27,270.

                                     •    In September 2004 (the end of the Federal fiscal year), the same official
                                          charged the WIC Program $25,209.

                                     •    In June 2005, the same official again charged the WIC Program $58,823.

                                    These three charges totaled $111,303. The related journal entries stated that
                                    these funds were used “to provide funding to non-WIC personnel providing
                                    WIC services.”

                                    When we asked this official why these charges had been made, the official
                                    stated that these allocations were made to support health department
                                    personnel who had provided WIC services to participants. According to this
                                    official, funds left over at the end of the year are allocated based upon
                                    internal district office time studies of non-WIC personnel performing WIC
                                    services. Since the Savannah District Office had unspent WIC funds
                                    remaining at the end of its fiscal year, these entries were made to charge these
                                    funds to WIC. The official further explained that the amounts were decided
                                    upon based on a time study conducted during one week of each quarter. The
                                    results of this time study were assumed to correspond to the entire quarter,
                                    though no support was provided to verify that assumption. Despite several

11
     OMB Circular A-87, dated May 2004.

USDA/OIG-A/27002-2-At                                                                                       Page 11
                   attempts by OIG and GDHR officials to obtain supporting documentation for
                   these entries, none was provided.

                   When we spoke to GDHR officials about these entries in the Savannah
                   District Office, they said that they compare costs incurred at the districts to
                   WIC funds received by the State and make adjusting entries to compensate
                   for any WIC-related work performed by non-WIC employees, so the journal
                   entries made by the district official were therefore unnecessary. Also, they
                   told us that the year-end adjusting entries to the WIC fund account is based
                   on RMSS results. They agreed that the questioned costs should be returned
                   to the WIC Program and stated that they would work to develop statewide
                   procedures to prevent this from occurring in other districts.

                   We concluded that, given the absence of documentation, the year-end
                   expenses charged to WIC by the Savannah District Office were not
                   allowable.

Recommendation 7

                   Recover $111,303 from GDHR for unsupported administrative costs charged
                   to the WIC Program.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        The State agency will be required to submit documentation
                        supporting that appropriate adjustments were made to credit the
                        WIC Program for this amount.

                   OIG Position. We agree with FNS’ proposed corrective action for this
                   recommendation. However to achieve management decision, FNS needs to
                   provide us with documentation that a claim has been established for the
                   agreed-upon amount.

Recommendation 8

                   Instruct GDHR to review year-end accounting adjustments made by all
                   19 districts and 2 nonprofit organizations in FY 2004 and FY 2005 and
                   recover all questionable administrative costs charged to the WIC Program.

                   Agency Response. In its March 29, 2006, response, FNS stated,

                        We will instruct GDHR to make all appropriate adjustments in
                        the remaining districts and nonprofit organizations. They will be
                        required to provide documentation supporting all adjustments
                        made relating to FY 2004 and FY 2005.

USDA/OIG-A/27002-2-At                                                                    Page 12
                   OIG Position. We agree with FNS’ proposed corrective action for this
                   recommendation. However to achieve management decision, FNS needs to
                   provide us with the timeframes for implementing the corrective action.




USDA/OIG-A/27002-2-At                                                            Page 13
Scope and Methodology
                                     Audit fieldwork was performed at (1) the Southeast FNSRO in Atlanta,
                                     Georgia; (2) GDHR’s Office of Financial Services and the WIC section of
                                     the Maternal and Child Health Office in Atlanta, Georgia; (3) district offices
                                     located in Augusta and Savannah, Georgia; and (4) eight public health clinics
                                     where WIC services are provided (see exhibit C). We performed audit work
                                     from April through September 2005.

                                     The audit primarily covered FY 2003 and 2004 expenditures; however, costs
                                     for other periods were reviewed as necessary. Georgia WIC nutrition service
                                     and administrative grants in FYs 2003 and 2004 totaled about $38.6 million
                                     and $40.8 million, respectively. The two district offices reported combined
                                     administrative costs totaling about $2.5 million in FY 2003 and $2.7 million
                                     in FY 2004.

                                     To accomplish the audit objectives, our examination consisted of the
                                     following:

                                       •    We selected one State for review. We selected Georgia based on input
                                            from FNSRO personnel and a relatively high level of WIC
                                            administrative costs (second highest in the region with almost $41million
                                            in NSA grants during FY 2004);

                                       •    We reviewed the following controls:
                                              o FNS controls, including Financial Management Reviews and
                                                  Management Evaluations,
                                              o State and local agency accounting controls,
                                              o State management evaluation reports, and independent financial
                                                  reviews, and
                                              o the State auditor’s and single audit reports on the State and local
                                                  agencies’ financial activities and compliance;

                                       •    We evaluated compliance with OMB Circular A-87 and 7 CFR 246,
                                            3015, and 3016 principles and standards;

                                       •    We interviewed Federal, State, and local agency officials and staff;

                                     We selected 2 of the 19 district offices for review. The district offices were
                                     selected because they offered a range of administrative costs.12 Other
                                     considerations were whether or not the local agency had clinics that provided
                                     WIC services exclusive of other public health services;

12
   For FYs 2003 and 2004, the Savannah District claimed administrative costs below the State average, while the Augusta District’s administrative costs
were slightly higher than the State average.

USDA/OIG-A/27002-2-At                                                                                                                         Page 14
                    •   We selected a total of eight clinics in the two districts for review. Our
                        selection of clinics was based on proximity to the district offices;

                    •   We reviewed documentation supporting judgmentally selected
                        administrative expenditures incurred by the State agency and two local
                        agencies which were claimed in FYs 2003 and 2004. The expenditures
                        were selected based on the type of expenditure recorded (e.g.,
                        equipment) and transaction date and amount. Primary emphasis was
                        directed at reviewing personal service costs and associated fringe benefit
                        costs, which represented a substantial percentage of total administrative
                        costs claimed for these fiscal years.

                   The audit was performed in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/27002-2-At                                                                    Page 15
Exhibit A – Summary of Monetary Results
                                                                     Exhibit A – Page 1 of 1




   FINDING
                        DESCRIPTION              AMOUNT          CATEGORY
   NUMBER
                    Unsupported administrative   $111,302.80     Questioned Costs –
        4
                              costs                            Recovery Recommended




USDA/OIG-A/27002-2-At                                                            Page 16
Exhibit B – Summary of Independent Financial Review Results
                                                                            Exhibit B – Page 1 of 1



District    Date of                     Finding(s)                        Recommended
            Review                                                       Recovery Amount
                          •   Prohibited travel reimbursement
Waycross
            6/23/04       •   Interagency agreements lacked proper          $1,139,064
  9-2
                              certification and validity
 Albany
            6/28/04       •   Invalid/unallowable interagency transfer      $95,336.61
  8-2
 Grady
            7/19/04       •   WIC funds used for non-WIC services             $22,490
  12-0
                          •   Unsupported interagency agreement
 Athens                       costs
            7/19/04                                                         $228,527.52
  10-0                    •   Unallowable compensation for
                              personnel services
 Rome
            7/30/04       •   Interagency agreements lacked validity       $2,664,134.65
  1-1
                          •
                      Unsupported interagency agreement
Columbus
             9/7/04   costs                                                  $919,347
   7-0
                   • Unsupported administrative costs
Gwinnett           • Unallowable non-WIC salary
           9/13/04                                                           $1,571.64
   3-4                compensation
 Dekalb            • Unsupported employee compensation
           9/15/04                                                           $145,093
   3-5             • Unallowable compensation transfers
                   • Invalid/unsupported interagency
 Dublin
           9/15/04    agreements                                            $234,137.36
   5-1
                   • Unaccounted WIC source funds
 Augusta           • Failed to report unliquidated obligations
          11/09/04                                                          $249,112.32
   6-0             • Unsupported WIC fund transfers
Savannah           • Unsupported employee compensation
          12/07/04                                                            $43,427
   9-1             • Unallowable WIC expenditures
   TOTAL RECOMMENDED RECOVERY AMOUNT                                       $5,742,241.10




USDA/OIG-A/27002-2-At                                                                   Page 17
Exhibit C – Sites Visited
                                                        Exhibit C – Page 1 of 1




    DISTRICT             COUNTY                CLINIC
                                   SOUTH AUGUSTA HEALTH
AUGUSTA                 RICHMOND
                                   DEPARTMENT
                                   LANEY WALKER
                                   MCDUFFIE COUNTY HEALTH
                        MCDUFFIE
                                   DEPARTMENT


SAVANNAH                CHATHAM    EISENHOWER CLINIC
                                   MIDTOWN CLINIC

                                   CURTIS V. COOPER CLINIC
                                   DEPARTMENT OF FAMILY AND
                                   CHILDREN’S SERVICES
                                   CURTIS V. COOPER PRIMARY CARE
                                   CENTER




USDA/OIG-A/27002-2-At                                                      18
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 4




USDA/OIG-A/27002-2-At                            19
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 4




USDA/OIG-A/27002-2-At                            20
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 4




USDA/OIG-A/27002-2-At                            21
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 4




USDA/OIG-A/27002-2-At                            22
